AU02-04 30 September 2002
Home < Reports < Audit Reports   Legal Services Corporation Office of Inspector General
Results of Recipient Audit Reports for the Year Ended December 31, 2001
Final Report No. AU02-04
September 2002
Other formats: PDF 147K | Word 61K
September 30, 2002
TO THE BOARD OF DIRECTORS
OF
THE LEGAL SERVICES CORPORATION
The Corporations fiscal year 1996 Appropriations Statute (Pub. L. No. 104-134) directed that annual financial statement audits be used as the primary means for verifying grantee compliance with applicable laws and regulations.
The Fiscal Year 2001 Appropriations Act (Pub. L. No. 106-553) also included this provision.
This report presents the results of the 2001 audits of LSC grantees.
Independent Public Accountants (IPAs) reported 75 findings in 212 audit reports.
The OIG reviewed the findings and concluded 39 were significant and referred them to LSC management for follow up.
None of the referred findings were for grantee noncompliance with prohibitions and restrictions on the provision of legal services.
Internal control weaknesses such as a failure to follow procedures or delays in processing financial transactions accounted for a significant portion of the referred findings.  Missing documents or unsigned documents accounted for the second highest number of findings.
Other findings involved timekeeping and reporting problems.
This report will be sent to the Corporations Congressional authorization and appropriations committees of Congress and will be made available to the public not later than October 16, 2002.
Leonard J. Koczur
Acting Inspector General
TABLE OF CONTENTS
Results
Summary of Significant Findings
Qualified audit Opinions
Findings Not Referred to Management
Rejected Audit
Audit Requirements
Scope and Methodology
Audit Information Management System
Initial Processing
Focused Review
Resolution
Corrective Action
Quality Control Process
RESULTS
The Office of Inspector General (OIG) received 212 calendar year 2001 financial statement audit reports from LSC grantees.
These reports contained 75 findings.
The 39 findings listed below were significant and were referred to LSC management for follow-up to ensure that the grantees corrected the reported problems.
The remaining findings were not significant and were not referred to management (see page 3).
Although the categories are not mutually exclusive, and some findings could be listed in more than one category, the following summary of significant findings shows each finding in only one category for ease of reference.
Summary of Significant Findings Referred to Management
Grantee Audit Reports Calendar Year 1998
CategoryNumber of Findings
Internal Control Problems
Processing financial data
Weaknesses over cash receipts/disbursements
Procedures lacking or not followed
Property inventory not taken or inaccurate property records
Uninsured bank deposits
Segregation of duties20
Missing documents and/or unsigned documents (i.e., client state-
ments of facts, citizenship attestations, retainer agreements)5
Timekeeping procedural and systems deficiencies4
LSC fund balance3
Others7
Total39
Noncompliance with Restrictions
The IPAs did not report any findings of noncompliance with either statutory client eligibility requirements, or with the prohibitions and restrictions on the legal services that may be provided.
Internal Control Problems
Deficiencies in the internal control system accounted for the largest number of significant findings (20).
These findings primarily involved the lack of written procedures,
the failure to follow procedures when they were available, weaknesses in processing financial data,
weaknesses in handling cash receipts and in processing financial data, cash balances exceeding the
amount insured by the Federal Deposit Insurance Corporation, property inventory not consistently
taken or inaccurate, and segregation of duties.  The OIG referred the findings to management because
an effective system of internal controls helps ensure compliance with LSC laws and regulations.
Missing Documents or Unsigned Documents
The second largest number of significant findings (5) was related to missing case files, missing documents
and unsigned documents such as client statements of facts, citizenship attestations, or retainer agreements.
These findings were referred to LSC management because missing files or unsigned documents make it difficult to
verify compliance with statutory requirements.
Timekeeping Procedural and Systems Deficiencies
Four findings reported deficiencies in timekeeping systems and failure to consistently follow the timekeeping system.
These findings were significant because accurate and reliable timekeeping is essential to ensuring that grantee staff
did not violate the prohibitions or restrictions imposed by Congress.
LSC Fund Balance
Two findings reported that grantees LSC fund balance exceeded the amount LSC regulations allow.  At the time of the audit, the grantees had not received waivers from LSC.  A third grantee had a deficit in its LSC fund account balance.  Fund balance findings are significant because they could indicate that grantees are not making the proper use of LSC funds.
Other Significant Findings
One finding disclosed that the annual certification of program integrity was not prepared.
This finding was referred because accurate reporting is an important element of effective program management.
Another finding related to a recipients purchase of real property.  It was referred to LSC management to
determine if the proper approvals had been obtained.  Another finding dealt with a fee for service issue.
Follow-up was needed to determine if the fees were allowable under LSC regulations.  Four findings
covered a range of administrative deficiencies.  Follow-up would help insure better program administration.
Qualified Audit Opinions
IPAs provided eleven qualified opinions on the Calendar Year 2001 audits.
Two qualified opinions were on the financial statements and were unrelated to compliance with LSC regulations.
IPAs rendered qualified compliance opinions for nine grantees.  Five of these qualified opinions were for
noncompliance that was unrelated to LSC requirements.  The remaining four qualified opinions resulted from
relatively minor noncompliance with LSC regulations and did not indicate that the prohibitions and restrictions
had been violated.
Findings Not Referred To Management
The IPAs reported 36 additional findings in audit reports for 28 grantees.
After reviewing these reports, the OIG concluded that the findings did not warrant mandatory
follow-up by LSC management.  Generally, the problems had been corrected or were considered
not significant and were communicated to LSC management via the Audit Information Management System (AIMS).
These findings were not significant for the following reasons.
(18)Corrective action taken subsequent to audit
( 6)Minor omissions or discrepancies, i.e., document obtained and signed but undated.
( 5)Segregation of duties
( 4)Minor internal control problem
( 3)Finding not related to LSC requirements
Rejected Audit
One audit report was rejected because it was not conducted in accordance with OIG requirements.
The grantees IPA performed additional work as the OIG required and the corrected audit report was submitted
to the Office of Inspector General.  The results of the audit are included in this report.
AUDIT REQUIREMENTS
LSC grant recipients are responsible for preparing annual financial statements and arranging for their audits by IPAs.
These audits are to be conducted in accordance with Government Auditing Standards promulgated by the Comptroller
General of the United States, Office of Management and Budget (OMB) Circular A-133, Audits of Institutions of Higher
Education and Other Non-Profit Institutions and the LSC OIG Audit Guide for Recipients and Auditors.  Audit
reports must be submitted to the LSC Office of Inspector General (OIG) within 120 days of the recipients fiscal
year end.  The reports are to include an opinion on the financial statements, a report on the internal control
structure, and a report on compliance with laws and regulations.
IPAs are also required to submit a Summary Report Form (SRF) on Noncompliance with Laws and Regulations,
Questioned Costs, and Reportable Conditions.  IPAs must submit SRFs via the Internet by completing a form residing
on the OIG website.  The SRF must be submitted regardless of whether or not there are any audit findings.
The IPA reports on the SRF any instances of noncompliance, material reportable conditions, and additional findings.
For each reported findings, the IPA provides a description of the finding, Audit Guide identification code for
the finding, the sample size of case files reviewed, the number of times a deficiency occurred, the recipient
response to the finding, and the amount of any questioned costs.
Under certain circumstances, the recipient must submit to the OIG a special report, called a 5-day letter,
which is based on a report the IPA prepares.  IPAs must immediately report to the recipient all findings of
noncompliance with the Congressionally imposed prohibitions and restrictions.  The IPAs report describes the
noncompliance and the circumstances under which it occurred.  Within five business days after issuance of the
IPAs report, the recipient must submit to the OIG, a report entitled "Recipient 5-day Special Report to the OIG
on Noncompliance with Laws and Regulations."  The recipient also sends a copy of this report to the IPA.
Recipients must submit corrective action plans to LSC for all material findings and recommendations and questioned
costs the IPA identified, within 30 days of the audit reports submission.  These plans must describe the corrective
action taken or planned in response to the audit findings and recommendations.  If the recipient disagrees with the
findings and recommendations, the reasons for the disagreement must be fully explained.  The recipient may incorporate
the corrective action plans into the audit report as part of its response to the auditors findings and recommendations,
but this option does not extend the due date for the audit report.
SCOPE AND METHODOLOGY
SCOPE
This report covers the grantee financial, internal control, and compliance audit reports prepared by IPAs for the
year ended December 31, 2001.
METHODOLOGY
Audit Information Management System
The OIG developed the Audit Information Management System (AIMS) to support the audit review team in performing desk reviews of audit reports.  The system tracks and collects information on the SRF, audit reports, 5-day letters, audit costs, and management letters.  It also tracks the resolution of audit findings and recommendations and documents and grantee corrective actions.
Initial Processing
IPAs electronically submit the SRF.
The OIG staff verifies that each form includes all required information before it is accepted into AIMS.
The grantees submit the audit reports through the mail.  The OIG staff does a brief review to ensure that
reports on the financial statement, internal controls, and compliance with LSC laws and regulations are provided.
Focused Review
Following initial processing, the OIG conducts a focused review of the critical audit findings and recommendations that
the IPA reported on the SRF.  The OIG auditors can add findings that were not reported on the SRF and amend IPA reported
findings based on the focused review.  An auditor reviews the findings and recommendations and takes action to
"invoke A-50" or to "close the finding to inventory." The LSC grantee audit follow-up process incorporates the concepts
of OMB Circular A-50 Audit Follow Up, and hence the use in AIMS of the term "invoke A-50."
The auditor then writes a justification for the recommended action, which is approved or revised by OIG audit management.
If A-50 is invoked, OIG audit management refers the audit findings and recommendations to LSC management for follow-up action.
The referral is made through AIMS by approving the finding for follow up and establishing a project code to track the
follow-up process through resolution and corrective action.
If the findings are closed to inventory, the findings and associated recommendations are retained in the AIMS system in
an inventory of noncritical findings.  These findings are provided to LSC management by the OIG for information and no
follow-up action is required.  The IPAs follow up on these findings in the next fiscal year audit.  If the IPAs report
that these findings are uncorrected the second year, A-50 is invoked at that time.
The decision of whether to invoke A-50 or to close to inventory rests on the findings significance.
A significant finding requires managements attention based on quantitative and/or qualitative conditions contained
in the finding.  The following types of findings and recommendations by grantee IPAs are referred to LSC management
for follow-up action:  noncompliance with laws and regulations which have a material impact on the LSC program,
questioned or unsupported costs, material weaknesses, reportable conditions that are indicative of a systemic
problem, and uncorrected findings from prior reports.
LSC management is responsible for following up on significant findings referred by the OIG to ensure that deficiencies
and noncompliance are promptly resolved.  Recipients are required to submit corrective action plans to LSC management
no later than 30 days after submission of the audit report.  If a recipient does not submit a corrective action plan
by the due date, LSC management contacts the grantee and requires immediate submission of the plan.
Resolution
Resolution is the point at which LSC management agrees with the grantees proposed corrective action plan or accepts
the grantees disagreement with a reported finding, and the OIG concurs in the management decision.  If LSC management
and the OIG cannot agree, resolution is reached when the LSC Audit Follow-Up Official, designated by the LSC President,
issues a decision on the matter.
LSC management reviews the grantees corrective action plan to determine if it is satisfactory.  If the proposed
corrective action is unsatisfactory, LSC management communicates the deficiencies to the grantee and requires the
grantee to provide a satisfactory plan.
LSC management ensures that proposed corrective actions are consistent with laws, regulations, and LSC policy.  If
a grantee disagrees with a reported finding or recommendation, LSC management ensures that the grantee provides an
adequate written justification containing the legal and factual basis for the disagreement.  Within 30 days of receipt
of the referred finding, LSC management notifies the OIG of its acceptance of the corrective action plan or the grantees
disagreement with the finding and recommendation.
The OIG notifies LSC management within 15 days of its concurrence or nonconcurrence.
If the OIG concurs, the finding is considered resolved.  If the OIG does not concur, the Audit Follow-Up Official
has 15 days to seek agreement between LSC management and the OIG.  If no agreement is reached within the 15 days,
the Audit Follow-Up Official issues a decision within 7 days, and the finding is considered resolved.
Corrective Action
After resolution has been obtained, LSC management ensures that corrective actions have been taken by the grantee
within six months of the resolution date.  LSC requires the grantee to provide documentation that the corrective
action has been fully implemented and requires the grantee to certify that all corrective actions have been implemented.
LSC management notifies the OIG of all completed corrective actions and provides the OIG with copies of the grantee
certifications.  Upon receipt of the notification of completion, the OIG closes the respective findings and
recommendations.  IPAs will also verify completion of corrective actions during the next fiscal year audit.
Quality Control Process
In 1998, the OIG initiated the Audit Service Review (ASR) program to evaluate the effectiveness of the compliance audits
performed by grantees IPAs.  ASRs include a review of the IPAs working papers to determine if the grantees compliance
with LSC laws and regulations was adequately tested.  The continuing ASR process allows the OIG to monitor the quality of the IPA audit reports and thus increase the reliability of the reports.
The OIG is conducting 20 ASRs on the grantees 2001 audits.  Eight have been completed and reports issued.
Three of the completed ASRs concluded that the auditors adequately tested compliance with all regulations.
Five ASRs found relatively minor testing deficiencies.  The OIG required these five auditors to ensure that adequate
testing would be done on future audits.  The remaining 12 reviews are in process and will be completed by September
30, 2002.
The OIG reviews all audit reports submitted by IPAs that include critical findings and those that have management letters.
The audit reports prepared by IPAs selected for ASRs are also reviewed.  The OIG reviewed 104 of the 212 audit reports
received for calendar year 2001.  In prior years, a sample of reports lacking critical findings was reviewed.  These
reviews disclosed few critical findings that had not been reported and were, therefore, not cost effective.  Reports
lacking critical findings or a management letter were not a priority this year and such reports have not been reviewed.
As staff is available, a small sample of reports with noncritical findings will be reviewed.
URL: http://www.oig.lsc.gov/reports/rrar/au0204.htm